	




    MEMORANDUM

    Date:          January 31, 2003

    To:            Donna Fortunat, Director
                   Division of Acquisition and Cost Support

                   Mary Santonastasso, Director
                   Division of Grants and Agreements

    From:          Deborah H. Cureton
                   Associate Inspector General for Audit

    Subject:       Audit Report 03-1003: Financial and Compliance of Indirect Costs for the
                   Year Ended June 30, 2000, of the Bigleow Laboratory for Ocean Sciences,
                   West Boothbay Harbor, Maine

           Attached is the final Financial and Compliance Audit of Indirect Costs for the
    Year Ended June 30, 2000 of Bigelow Laboratory for Ocean Sciences (BLOS).
    M.D.Oppenheim & Company, P.C., an independent public accounting firm under
    contract to the Office of the Inspector General, performed the audit.

            NSF is the agency responsible for negotiating and approving indirect cost rates for
    BLOS on behalf of the Federal government. As of June 30, 2000, BLOS had nine active
    awards for which it had received $5.86 million in NSF funding and had claimed $333,113
    in indirect costs.

            For fiscal year 2000, the audit found that BLOS generally has an adequate system
    to prepare indirect cost rate proposals. The audit did identify three reportable internal
    control weaknesses and two compliance deficiencies. The most serious internal control
    weakness is that BLOS excluded $40,704 of indirect costs from the pool used to calculate
    its proposed rate to make its actual rate closer to its


                          In addition, the audit found that contrary to standard accounting
    practice, BLOS did not require employees to sign for received goods and services or
    mark invoices "Paid" when paid because BLOS thought it was too small an organization
    to need these procedures. As a result, BLOS had no documentation to demonstrate that
payments for goods and services were valid, and no procedures to prevent duplicate
payments. The compliance findings were that BLOS included unallowable travel costs of
$8,949 in the indirect cost pool, because it did not use the Federal per diem restrictions,
and unallowable entertainment expenses of $5,759 because it mistakenly thought some of
these costs were allowable as employee morale exceptions to the cost principle stating
that entertainment expenses are not allowable.

        In response to the audit, BLOS agreed with all findings, except for the finding that
it manipulated the rate by excluding indirect costs from the indirect cost pool. We
therefore, reiterated our recommendation that the Directors of NSF's DACS and DGA
require BLOS to submit indirect cost proposals using actual costs in its general ledger.

        In accordance with OMB Circular A-50, Audit Followup, and NSF's Standard
Operating Guidance 2001-4, Policies and Procedures to Audit Reports Issuance and
Resolution of Audit Findings Contained in Audits of NSFAwardees, we request that NSF
submit a written corrective action plan to our office identifying the specific actions and
milestone dates for addressing our recommendations. To ensure that all findings are
resolves within six months, we ask that you submit the plan to us within 60 days of the
date of this letter. We are, of course, available to work with you during the next 60 days
to ensure the submission of a mutually agreeable corrective action plan.

        We thank you and your staff for the cooperation extended to us during this audit.
If you have any questions about this report, please contact James Noeth on extension
5005, or Emily Woodruff, on extension 5019.
BIGELOW LABORATORY FOR OCEAN SCIENCES
         West Boothbay Harbor, Maine

        Financial and Compliance Audit
                       of
                 Indirect Costs
       For the Year Ended June 30, 2000




                                 M.D. Oppenheim & Company, P.C.
                                       Certified Public Accountants
                                   485 U.S. Highway 1, Building C
                                     Iselin, New Jersey 08830-4100
	




                      BIGELOW LABORATORY FOR OCEAN SCIENCES

                                         Table of Contents

                                                                                         Page
    Acronyms                                                                                1

    Section I - Introduction and Audit Results                                              3
     Background                                                                             3
     Objective and Scope of Audit                                                           3
     Summary of Audit Results                                                               5
     Exit Conference                                                                        6

    Section II - Findings and Recommendtions:
     Independent Auditors' Report on Compliance and Internal Control                        8
     Findings and Recommendations on Compliance                                            10
     Findings and Recommendations on Internal Control                                      12

    Section III - Financial Schedules:
     Independent Auditors' Report                                                       15
     Schedule A - Schedule of Over/(Under) Recovered Indirect Costs on National Science
                     Foundation Awards                                                  17
     Schedule B - Schedule of Indirect Costs                                            19
     Schedule C - Schedule of Auditors' Adjustments and Eliminations                    21
     Notes to Financial Schedules                                                       25

    Section IV - Supplementary Information:
     Independent Auditors' Report on Supplementary Information                            27
     Schedule D- I to D-15 -Detailed Schedule of Over/(Under) Recovered Indirect Costs
                              by NSF Award                                                28
     Schedule E - Listing of NSF Awards Active During Audit Period Not Affected by
                    Indirect Cost Audit                                                   43

    Section V - Awardee's Response                                                        44
	




               BIGELOW LABORATORY FOR OCEAN SCIENCES

                                       Acronyms


    Acronym   Explanation of Acronym

    AICPA     American Institute of Certified Public Accountants

     BLOS     Bigelow Laboratory for Ocean Sciences

    DACS      Division of Acquisition and Cost Support

     DGA      Division of Grants and Agreements

     FCTR     Federal Cash Transactions Report

      FY      Fiscal Year

     FYE      Fiscal Year Ended

    MTDC      Modified Total Direct Costs

     NSF      National Science Foundation

     OIG      Office of Inspector General

     OMB      Office of Management and Budget

      PI      Principal Investigator




                                                                   1
          SECTION I

INTRODUCTION AND AUDIT RESULTS




                                 2
                                     SECTION I -
                           INTRODUCTION AND AUDIT RESULTS

                                                BACKGROUND

          Bigelow Laboratory for Ocean Sciences (BLOS) is a not-for-profit, tax-exempt,
    organization established to provide scientific and educational research services to
    governmental, industrial, and educational entities. BLOS receives approximately $4.6
    million of annual revenues, mainly from Federal and non-Federal financial assistance and
    contributions. Of the $4.6 million of annual revenues, Federal financial assistance
    approximates $3.8 million. The National Science Foundation (NSF) provides $1.4 million of
    this Federal financial assistance to BLOS, and is its cognizant agency for setting indirect cost
    rates.' During the time period of our audit BLOS had 17 NSF active awards, 15 of which
    had indirect costs.


                                 OBJECTIVE AND SCOPE OF AUDIT

          At the request of the NSF Office of the Inspector General (OIG) M. D. Oppenheim &
    Company, P.C. conducted a financial and compliance audit of the indirect cost proposal
    prepared by BLOS for the year ended June 30, 2000 to determine the final indirect cost rate
    for that year. During the period of our audit, the 15 active awards included indirect costs
    based on a rate negotiated between NSF and BLOS or an indirect cost rate in the award
    letter. Our audit objectives were: (1) to determine whether BLOS complied with Federal
    requirements in computing its indirect cost proposal; (2) to determine whether, based upon
    audit-determined indirect cost rates, BLOS over or under-recovered indirect costs on each
    NSF award active during the audit period; and (3) to evaluate the adequacy of BLOS'
    internal controls to administer, account for, and monitor indirect cost charges to Federal
    awards.

        To accomplish the objectives of the audit, we:

    •     Conducted an on-site audit survey with sufficient observations, interviews, and
          examinations of documents to make an initial determination whether the
          predetermined rates were based on allowable indirect costs and whether controls to
          administer, account for, and monitor indirect costs are adequate to ensure compliance
          with Federal cost principles and administrative requirements.

    •     Prepared an audit planning document for OIG review and approval. The planning
          document included a description of BLOS' organizational structure and the process
          used to administer, account for, and monitor indirect cost charges to Federally
          sponsored awards. As part of the planning process we performed an assessment of
          audit risk and obtained an understanding of BLOS' control environment.



1
 OMB Circular A-122, Cost Principles for Non-Profit Organisations, defines a cognizant agency as "the Federal
agency responsible for negotiating and approving indirect cost rates for a non-profit organization on behalf of all
Federal agencies." OMB Circular A-122, Attachment A, Section E 1 a.
                                                                                                                      3
    •   Prepared an internal control audit planning document, for OIG review and approval.
        The internal control planning document included the proposed audit
        programs/procedures for testing the significant internal controls necessary to
        accurately administer, account for, and charge indirect cost charges to Federally
        sponsored awards. As part of the internal control process, we assessed the areas of
        control environment, risk assessment, information and communication, monitoring,
        and control activities.

   •    Prepared a substantive audit testing planning document for OIG review and approval.
        The substantive planning document included the preliminary results of the internal
        control phase of the audit, including any findings and recommendations and the
        proposed audit program, which included the tests on compliance with applicable laws
        and regulations and substantive testing procedures to be applied to the indirect cost
        pool and the direct cost base.

   •     Performed testing procedures so as to determine whether the indirect cost proposal
         and the resultant indirect cost rate complies with OMB Circulars A-I10, Uniform
        Administrative Requirements for Grants and Agreements with Institutions of Higher
         Education, Hospitals and Other Nonprofit Organizations, and A-122, Cost Principles
        for Non-Profit Organizations.

    We conducted our audit in accordance with AICPA auditing standards generally accepted
in the United States of America, the Comptroller General's Government Auditing Standards
and the provisions of the NSF Grant Policy Manual, and included tests of the accounting
records and other auditing procedures that we considered necessary to fully address the audit
objectives.




                                                                                           4
                                 SUMMARY OF AUDIT RESULTS


      NSF and BLOS negotiated a predetermined fixed rate of 46 percent for indirect costs to
be applied to Federal awards in Fiscal Year (FY) 2000. 2 In November 2000, BLOS
submitted an indirect cost rate proposal to NSF to establish an actual rate of 46.82 percent for
FY 2000. Our audit found that the actual rate for that fiscal year was 47.75 percent, a rate
NSF can use in negotiating BLOS' future indirect cost rates. The small differences among
the negotiated, proposed actual, and audit recommended rates provides assurance to NSF that
BLOS had an adequate system to prepare indirect cost rate proposals, and it did not over-
recover indirect costs. In fact, we found that based on the indirect costs allowable under the
awards, BLOS under-recovered $6,017 on 11 of the 15 awards included in our audit. 3

      Although BLOS had an adequate system to prepare indirect cost rate proposals, we
found that it incorrectly excluded $40,704 of its indirect costs from its proposal so that its
actual rate would be closer to its 46 percent predetermined rate. BLOS believed that such
rate consistency would make its award proposals more competitive. However, by not
using actual indirect costs in its indirect cost proposal, BLOS' proposals for indirect cost
rates can be either artificially reduced or inflated, depending on what costs BLOS decides to
put into the proposal. In addition to this reportable condition, we also found that BLOS had
inadequate internal control procedures for documenting receipt of goods to ensure that
payments are for valid purchases, and for canceling invoices after they have been paid to
prevent duplicate payments. We also found certain compliance deficiencies. Specifically,
because staff overlooked or misinterpreted Federal requirements for unallowable costs,
BLOS incorrectly included $8,949 in excessive travel costs and $5,759 of unallowable
entertainment costs in its indirect cost proposal.

       To address the internal control weaknesses and compliance deficiencies, we
recommended that the Directors of NSF's Division of Acquisition and Cost Support (DACS)
and the Division of Grants and Agreements (DGA) require that BLOS (1) submit indirect
cost proposals using actual costs, (2) utilize a signed receiving report to document receipt of
satisfactory goods and services, (3) mark "Paid" or otherwise cancel invoices when they are
paid, (4) train its employees to follow Federal cost principles regarding unallowable
entertainment costs, and (5) ensure that its staff follows its travel limitations in charging
travel costs. Except for our recommendation that BLOS submit indirect cost proposals using
actual costs, it agreed to implement the recommendations.




2
 According to NSF's Grant Policy Manual (GPM) (02-151), section 633.1 b 2, a predetermined fixed rate "is a
permanent funding rate established for an award based on an estimate of costs for that period."
3
    See Schedule A.
                                                                                                              5
                                   EXIT CONFERENCE

     An exit conference was held on May 31, 2002 at the Auditee's office located at
McKown Point, West Boothbay Harbor, Maine. The findings on compliance and internal
control along with the adjustments and eliminations related to the indirect cost proposal were
discussed by the following individuals.

For Bigelow Laboratory for Ocean Sciences:




For M.D. Oppenheim & Company, P.C.:




                                                                                            6
         SECTION II

FINDINGS AND RECOMMENDATIONS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


              INDEPENDENT AUDITORS' REPORT ON COMPLIANCE
                        AND INTERNAL CONTROL

We have audited the summary schedule of over/(under) recovered indirect costs
(Schedule A) and the schedule of indirect/direct costs (Schedule B) which summarizes the
indirect cost proposal prepared by Bigelow Laboratory for Ocean Sciences for the year ended
June 30, 2000, and have issued our report thereon dated May 31, 2002. We conducted our
audit in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States and the National Science
Foundation Audit Guide (September 1996).

Compliance

As part of obtaining reasonable assurance about whether Bigelow Laboratory for Ocean
Science's financial schedules are free of material misstatement, we performed tests of its
compliance with certain provisions of laws, regulations, and policies, noncompliance with
which could have a direct and material effect on the determination of the financial schedules
amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit and, accordingly, we do not express such an opinion. The results of
our tests disclosed the instances of noncompliance, as reported in the accompanying Findings
and Recommendations on Compliance and the adjustments and eliminations noted in
Schedule C, that are required to be reported under Government Auditing Standards and the
National Science Foundation Audit Guide.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered Bigelow Laboratory for Ocean
Science's internal control over financial reporting in order to determine our auditing
procedures for the purposes of expressing our opinion on the financial schedules and not to
provide assurance on the internal control over financial reporting. However, we noted
certain matters involving internal control over financial reporting and its operation that we
consider to be reportable conditions. Reportable conditions involve matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control


                                                                                               8
National Science Foundation
Office of Inspector General
Arlington, Virginia


Internal Control Over Financial Reporting (Cont.)

over financial reporting that, in our judgment, could adversely affect Bigelow Laboratory for
Ocean Science's ability to record, process, summarize and report financial data consistent
with the assertions of management in the financial schedules. The reportable conditions
noted are described in the accompanying Finding and Recommendation on Internal Control.

A material weakness is a condition in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of the internal control over
financial reporting would not necessarily disclose all matters in the internal control that
might be reportable conditions and, accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material weaknesses. However, we believe that the
above reportable conditions described in Finding Numbers I through 3 are not material
weaknesses.

This report is intended solely for the information and use of Bigelow Laboratory for Ocean
Sciences and the National Science Foundation and is not intended to be and should not be
used by anyone other than these specified parties.




May 31, 2002




                                                                                            9
                    BIGELOW LABORATORY FOR OCEAN SCIENCES
                      Findings and Recommendations on Compliance
                             For the Year ended June 30, 2000


1. Unallowable Entertainment Costs Included in the Indirect Cost Pool

       OMB Circular A-122, Attachment B, section 14, states that costs of "amusement,
diversion, social activities, ceremonials, and costs relating thereto, such as meals, lodging,
rentals, transportation, and gratuities" are unallowable.         BLOS included $5,759 of
unallowable entertainment costs in its indirect cost pool, because its accounting staff
mistakenly believed these costs were allowable.

Recommendation

        We recommend that that the Divisions of DACS and DGA require BLOS to train its
staff to understand and comply with Federal requirements regarding the unallowablility of
certain entertainment costs.

Auditee's Response

       At the time of the occurrences, we mistakenly believed that these costs were
allowable as employee morale expenses. We now understand that the definition of employee
morale is extremely limited and have adjusted our records to properly record the costs of any
local employee gathering, such as social activities and ceremonials, as unallowable costs.

Auditors' Response to Auditee's Response

       Since BLOS concurs with the finding and recommendation, a response is not deemed
necessary.

2. Unallowable Travel Costs Included in the Indirect Cost Pool

       Contrary to BLOS policy, which requires travelers to limit their travel costs to Federal
per diem amounts, BLOS included $8,949 in excessive travel costs in its indirect cost pool.
The major portion of the amount was attributable to $10,005 paid to an architectural firm in
June 2000 for travel to BLOS headquarters in West Boothbay Harbor, Maine. The maximum
Federal per diem for the firm's five representatives was $1,940, which BLOS exceeded by
$8,065. BLOS included unallowable travel costs in the indirect cost pool because its
accounting staff did not remember to follow Federal per diem limits.

Recommendation

       We recommend that the Directors of NSF's Divisions of DACS and DGA require that
BLOS ensures that its staff follows its policy to utilize Federal per diem travel limitations in
charging travel costs.




                                                                                              10
                   BIGELOW LABORATORY FOR OCEAN SCIENCES
                  Findings and Recommendations on Compliance (Cont.)
                             For the Year ended June 30, 2000


Auditee's Response

       The architect's invoice in question was received at year end and the travel costs were
not thoroughly reviewed. We were unable to substantiate that any other expenses were
included in the questioned line and thus concurred with the finding. All staff travel vouchers
are now reviewed by two people and we will also carefully monitor the travel expenses of
our professional services providers.

Auditors' Response to Auditee's Response

       Since BLOS concurs with the finding and recommendation, a response is not deemed
necessary.




                                                                                           11
                         BIGELOW LABORATORY FOR OCEAN SCIENCES
                           Findings and Recommendations on Internal Control
                                    For the Year ended June 30, 2000

    1. Indirect Cost Proposal Does Not Use Actual Costs

      Effective internal controls require accurate reporting of the indirect costs included in
an indirect cost pool. In its indirect cost proposal to NSF, BLOS did not include in its
indirect cost pool costs in two accounts, "Unallocated Overhead" of $21,412, and
"Unallocated Fringe" of $19,292. Upon discussion with management, we learned that BLOS
excluded these costs so that theproposed rate (46.82 percent) would be closer to the




Recommendation

        We recommend that the Directors of NSF's Divisions of DACS and DGA require
BLOS to submit an indirect cost proposal using all actual costs derived from its general
ledger.

Auditee's Response

        These costs were excluded only in our computerized accounting so that the automated
posting of indirect costs to grants would not exceed the 46% allowed. Those final grant
amounts are then rolled over to the new year as prior year costs. This is done to comply with
our indirect rate understanding that amounts over the maximum provisional or predetermined
rate cannot be charged to any funding agency. This excess amount was journaled out of
administrative/indirect costs into the "unallowed costs" area so that it would not be included
in any grant costs or calculations.

        We also utilized a budgeting process that makes sure that we do not exceed our target
of a 46% indirect cost rate. In addition, research proposals are submitted using a 46%
indirect rate. This indirect rate used for submitting proposals has remained at 46% for
several years since our maximum provisional rate has not varied.

Auditors' Response to Auditee's Response

       BLOS has acknowledged that it excluded $40,704 of indirect costs from its indirect
cost pool, but its only explanation for the exclusion is that it wanted to ensure that its
proposed rate did not exceed it target rate of 46 percent. It is this practice of "targeting" its
proposed rate that is the central finding of our audit report, and BLOS' response does not
acknowledge that this kind of manipulation of its proposed indirect cost rate is unacceptable.
We reiterate our initial recommendation.

4
    See NSF Office of the Inspector General, Audit Report Number 97-1030.
                                                                                               12
                  BIGELOW LABORATORY FOR OCEAN SCIENCES
                    Findings and Recommendations on Internal Control
                             For the Year ended June 30, 2000

2. Prior to Payment a Designated Employee(s ) Should Verify Receipt

       Effective internal accounting controls require that prior to payment, a designated
employee(s) should verify that requisitioned goods and services were received. BLOS did
not require employees to sign for received goods and services because it thought that in such
a small organization it was easy to verify receipt.          Consequently, BLOS had no
documentation to demonstrate that payments for these goods and services were for valid
purchases.

Recommendation

       We recommend that the Divisions of DACS and DGA require BLOS to ensure that
prior to payment, BLOS designate an employee(s) to sign and document receipt of the
applicable goods and services.

Auditee's Response

       Each science team has a designated person who deals with purchase orders, ordering
and approving invoices. Since Bigelow is a fairly small lab, we occasionally allowed
authorizations to be made by phone with no written audit trail. We have since changed our
method for verifying receipt of goods so that all payments have initials or a signature and
approval for payment.

Auditors' Response to Auditee's Response

       Since BLOS concurs with the finding and recommendation, a response is not deemed
necessary.

3. Invoices Should be Cancelled

       Effective internal accounting controls dictate that an organization should cancel or
mark invoices "Paid" when paid to prevent duplicate payments. BLOS did not formally
mark invoices "Paid" or cancel them because it thought such a step was unnecessary in its
small organization. As a result, BLOS has no procedures to prevent duplicate payments.

Recommendation

       We recommend that the Divisions of DACS and DGA require BLOS to ensure that it
cancels or marks "Paid" all invoices when paid.

Auditee's Response

       We purchased a "PAID" stamp the week after our NSF audit exit interview and we
have used it diligently since.

Auditors' Response to Auditee's Response

       Since BLOS concurs with the finding and recommendation, a response is not deemed
necessary.

                                                                                          13
    SECTION III

FINANCIAL SCHEDULES




                      14
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                         INDEPENDENT AUDITORS' REPORT

We have audited the indirect cost proposal, Bigelow Laboratory for Ocean Sciences has
proposed as applicable to the National Science Foundation and other Federal awards for the
year ended June 30, 2000. This indirect cost proposal, as presented in the schedule of
indirect/direct costs (Schedule B) and the summary schedule of over/(under) recovered
indirect costs (Schedule A) are the responsibility of Bigelow Laboratory for Ocean Science's
management. Our responsibility is to express an opinion on Schedules A and B based on our
audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards issued by the Comptroller
General of the United States, and the National Science Foundation Audit Guide (September
1996). Those standards and the National Science Foundation Audit Guide require that we
plan and perform the audit to obtain reasonable assurance about whether the financial
schedules are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial schedule presentation. We believe
our audit provides a reasonable basis for our opinion.

The accompanying financial schedules were prepared for the purpose of complying with the
requirements of the National Science Foundation Audit Guide as described in Note 1, and are
not intended to be a complete presentation of financial position in conformity with
accounting principles generally accepted in the United States of America.

In our opinion, the financial schedules referred to above present fairly, in all material
respects, the indirect cost proposal (Schedule B) and the resultant over/(under) recovered
indirect costs (Schedule A) for the year ended June 30, 2000, in conformity with the National
Science Foundation Audit Guide, NSF Grant Policy Manual, and on the basis of accounting
described in Note 1.




                                                                                          15
National Science Foundation
Office of Inspector General
Arlington, Virginia


In accordance with Government Auditing Standards, we have also issued our report dated
May 31, 2002 on our consideration of Bigelow Laboratory for Ocean Science's internal
control over financial reporting and on our tests of its compliance with laws and regulations.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be read in conjunction with this report in considering the results of our
audit.

Schedule C contains indirect costs in the amount of $16,868 that are reductions to the
indirect costs proposed and $2,670 that are additions to the direct costs proposed for the year
ended June 30, 2000. The final determination, as to whether such costs are allowable or
unallowable, will be made by the National Science Foundation. The ultimate outcome of this
determination cannot presently be determined.

This report is intended solely for the information and use of Bigelow Laboratory for Ocean
Sciences and the National Science Foundation and is not intended to be and should not be
used by anyone other than these specified parties.




May 31, 2002




                                                                                            16
	




                                                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                                    Schedule of Over/(Under) Recovered Indirect Costs on National Science Foundation Awards
                                                          For the Period July 1, 1999 to June 30, 2000
                                                                                                                                                Indirect Costs
                                                                                      Indirect Cost Rate                                       Allowed Over/ (Under)      Over/(Under)
                                          Indirect Cost Approved In Award              Proposed/Audited                                       (Approved      Recovered     Recovered
      NSF Award                                                                Proposed Audited        Schedule                   Claimed        Rate       Per Audited   Per Allowed Comment/
       Number           Award Period            Cost Method          Rate        Rate        Rate      Reference     Per Audit     to NSF     x MTDC)           Rate         Rate       Notes

    OCE-9423535       07/1/95-06/30/00    Maximum Provisional      41.30%*      46.82%     47.75%         13-la       $22,644    $ 19,585      $ 19,585      $(3,059)       $       -0-

    OCE-9513846 04/15/96-02/28/01 Maximum Provisional               46.00%      46.82%     47.75%         B-la          71,069      67,703       68,465       (3,366)             (762)

    OCE-9634162 09/15/96-08/31/99 Maximum Provisional              46.00%*      46.82%     47.75%         B-la          10,910      10,345       10,510         (565)             (165)   (A)

    OCE-9634165 12/01/96-11/30/00                                  46.00%*      46.82%     47.75%         B-la          35,097      30,195       33,811       (4,902)           (3,616)   (B)

    OCE-9617960 02/15/97-01/31/02 Maximum Provisional              46.00%*      46.82%     47.75%         B-la           2,112        1,912       2,035         (200)             (123)

    OCE-9617680 03/01/97-02/29/00 Maximum Provisional               46.00%      46.82%     47.75%         B-la          25,542      24,474       24,606       (1,068)            (132)    ( A)

     OPP-9711723      08/15/97-07/31/01   Maximum Provisional       46.00%      46.82%     47.75%         B-la          15,241      14,443       14,682         (798)             (239)

    OCE-9711168 09/15/97-08/31/00 Maximum Provisional               46.00%      46.82%     47.75%         B-la          46,415      44,512       44,714       (1,903)            (202)

    DEB-9806743       09/15/98-08/31/01                            46.00%*      46.82%     47.75%         B-la          18,278      17,558       17,608         (720)              (50)

    OCE-9813640       11/01/98-10/31/01                            46.00%*      46.82%     47.75%         B-la          16,946      15,604       16,324       (1,342)            (720)

    OCE-9813642 02/01/99-01/31/02                                  46.00%*      46.82%     47.75%         B-la          29,616      28,524       28,531       (1,092)               (7)

    OPP-9815155       07/01/99-06/30/01            *(C)            46.00%*      46.82%     47.75%         B-la          20,560      19,806       19,806         (754)               -0-

    MCB-9904444 10/01/99-03/31/01                  *(C)            46.00%*      46.82%     47.75%        B-la           16,419      15,817       15,818         (602)               (1)

    OCE-9986331       05/01/00-04/30/02            *(C)            46.00%*      46.82%     47.75%        B-la               38          37           37           (1)               -0-

    OPP-9910676      05/15/00-02/28/02             *(C)            46.00%*      46.82%     47.75%        B-la          23,458       22 598       22 598         (860)               -0-

               Grand Totals                                                                                         $354,345     $$ 333.113   $339,130     S(21,232)        $ (6,017)
    Comments/Notes:

    MTDC = Modified Total Direct Costs. (Total direct program costs less equipment, participant support costs and subcontract costs).
    (A) Financially closed award.

                                                                                                                                                                                                 to
    (B) The total direct and indirect costs reflected in BLOS' books of account exceed the total maximum budgeted reimbursable costs.
                                                                                                                                                                                                 n
                                                                                                                                                                                                 C
    (C) Negotiated fixed rate for this award.
                                                                                                                                                                                                 co
    * = Award letter did not include a statement as to the indirect cost method or rate. The rate presented above was derived from the approved budget.

                                                                                                                                                                                                 a
                                                                                                                                                                                                 CD
    See accompanying notes to these financial schedules.
                                                      BIGELOW LABORATORY FOR OCEAN SCIENCES
                                     Schedule of Over/(Under) Recovered Indirect Costs on National Science Foundation Awards
                                                           For the Period July 1, 1999 to June 30, 2000

     Four of the awards included in our audit utilized a predetermined fixed rate; and eleven utilized a maximum provisional rate. Of the eleven, four awards did not identify in their award letters
     what cost method to be used; and we determined that the applicable cost method was a maximum provisional rate either by finding an indirect cost rate schedule listing a maximum
     provisional cost method in the official NSF file (for Award Number OCE-9634165), or by determining that the negotiated rate in effect at the time the awards were made was a maximum
     provisional rate (for Award Numbers DEB-9806743, OCE-9813640, and OCE-9813642).

     For awards with predetermined fixed indirect cost rates, NSF allows awardees to bill at either the rate established at the time the award was provided for the lifetime of the award or at the
     rates negotiated for each of the subsequent years of the award. The only requirement NSF imposes on this decision is that the awardee uses the selected method consistently to charge its
     indirect costs on all its NSF awards. BLOS practice is to use the predetermined indirect cost rate in the award letter for the life of the award. For awards with maximum provisional indirect
     cost rates, NSF requires an awardee to bill at the lesser of the maximum provisional rate established at the time of the award or the final rate established after the end of an accounting period 6
     Thus, for each year of an award, the awardee must compare the final rate for that year with the maximum provisional rate, and bill for reimbursement of indirect costs at the lower of the two
     rates.

     BLOS    billed NSF at rates that were lower than the rates allowed in the award letters, and it under-recovered $6,017, although it could not recover $3,913 of that amount due to restrictions
     notes in A and B above. Thus total recovery would be limited to $2,104 ($6,017-$3,913). Schedule A also shows that the audited rates were generally 1.75 percentage points higher than the
     rates allowed in the award letters or budgets. The under-recovery that would have occurred using the difference between the rate BLOS used to claim its indirect costs and the rate
     determined in this audit is $21,232.




     5
         See GPM (02-151), section 633.1 b 2 for restrictions on the option to use each year's negotiated rate for indirect cost recovery.                                                                  C)
                                                                                                                                                                                                            C
     6
       According to NSF's GPM (02-151), section 633.1 b 1, a maximum provisional rate is "a temporary rate established for an award to permit funding and reporting of
     indirect costs pending the establishment of a final rate (the rate determined at the end of an accounting period using "actual" direct and indirect cost data). This type of                           (D
     rate limits indirect cost recoveries to the lower of the maximum provisional rate established at the time of the award, or the final rate established at the end of an
     accounting period."
                                                                                                                                                                                                            n
                                                                                                                                                                                                            0
00   7
         In the case of Award Number OCE-9423535, the audited rate was 6.45 percentage points higher than the allowed rate in the award.
	




                                                                                Schedule B-la

                        BIGELOW LABORATORY FOR OCEAN SCIENCES
                                  Schedule of Indirect Costs
                               For the year ended June 30, 2000




       Total expenses                          $ 1,147,523         $ 23,836            $ 1,171,359
                                                                (Schedule C-l a)


     Computation of Indirect Cost Rate	        Per BLOS	           Per Audit

    Total indirect costs                       $ 1,147,523       $ 1,171,359
    Total direct costs                           2,451,036         2,453,196

	   Computed Indirect Cost Rate                      46.82%	           47.75%

    (A) The amounts agree with the indirect cost rate proposal prepared by Bigelow Laboratory
        for Ocean Sciences (BLOS). The total costs before auditors' adjustments and
        eliminations agree with BLOS' books of account.



                                                                                           19
    See accompanying notes to financial schedules.
	




                                                                                   Schedule B-1b

                           BIGELOW LABORATORY FOR OCEAN SCIENCES
                                      Schedule of Direct Costs
                                  For the year ended June 30, 2000




          Total expenses                       $2,451,036             $2,160           $2,453,196
                                                                 (Schedule C-lb)

    (A)     The amounts agree with the indirect cost rate proposal prepared by Bigelow Laboratory
            for Ocean Sciences (BLOS). The total costs before auditors' adjustments and
            eliminations agree with BLOS' books of account.




                                                                                              20
    See accompanying notes to financial schedules.
	




                                                                                       Schedule C

                      BIGELOW LABORATORY FOR OCEAN SCIENCES
                       Schedule of Auditors' Adjustments and Eliminations
                                For the year ended June 30, 2000


    The amounts as proposed by BLOS in their indirect cost proposals for the year ended
    June 30, 2000 (Schedules B-la and B-lb) required various adjustments and eliminations to
    the indirect cost or direct cost pools. These adjustments and/or eliminations are presented in
    Schedules C-la and C-lb. On the following pages in Schedules C-la and C-lb these
    adjustments and/or eliminations are detailed. Presented below is a brief summary of the type
    of adjustment and/or elimination along with the relevant criteria.

           Adjustment and/or Elimination                                 Criteria

    Direct program costs included in the indirect   OMB Circular A-122, Attachment A, Part B (1)
    cost pool for a DNA sequencer that was          states that direct costs are those that can be
    charged to administrative expenses.             identified specifically with a particular cost
                                                    objective. In addition, OMB Circular A-122,
                                                    Attachment A, Part C (1) states indirect costs
                                                    are those that have been incurred for common
                                                    or joint objectives and cannot be readily
                                                    identified with a particular final cost objective.

    Reimbursed travel vouchers paid to              Federal regulations state that in order for
    employees in excess of the maximum amount       travel costs to be considered reasonable, costs
    allowable under Federal regulations were        claimed may be measured against the current
    included in the indirect cost pool and direct   per diem or mileage rates approved under
    cost base.                                      Standardized Government Travel Regulations.

    Entertainment    costs  which      includedth   OMB Circular A-122, Attachment B, item 14,
    celebrations for an employee picnic, 25         states that costs of amusement, diversion, social
    anniversary celebration and other similar       activities, ceremonials, and costs relating
    type expenses were included in the indirect     thereto, such as meals, lodging, rentals,
    cost pool.                                      transportation, and gratuities are unallowable.

    Indirect costs attributable to operations OMB Circular A-122, Attachment A, Part A(1)
    (unallocated fringe benefits and overhead) requires the composition of total costs of an
    not reflected in indirect costs proposed.  award is the sum of the allowable direct and
                                               allowable indirect costs less any applicable
                                               credits.




                                                                                                21
                                                                            Schedule C (Cont.)

                   BIGELOW LABORATORY FOR OCEAN SCIENCES
                 Schedule of Auditors' Adjustments and Eliminations (Cont.)
                              For the year ended June 30, 2000

Auditee's Response

Direct Program Costs Included in Indirect Costs

        At the time, we believed that this piece of equipment qualified as an indirect cost.
However, upon reexamination of the OMB Circular-122, Attachment A, Part B(1), we
realize that this should have been a program cost.

Reimburseable Travel Vouchers - Excess Amounts

       All staff travel vouchers are now reviewed by two people to ensure that the proper per
diem rate is used. We will also carefully monitor the travel expenses of our professional
services providers.

Entertainment Costs in Indirect Cost Pool

       At the time of the occurrences, we mistakenly believed that these costs were
allowable as employee morale expenses. We now understand that the definition of employee
morale is extremely limited and have adjusted our records to properly record the costs of any
local employee gathering, such as social activities and ceremonials, as an unallowable cost.

Fringe Benefits and Overhead not Reflected in Indirect Cost Pool

        These costs were excluded only in our computerized accounting so that the automated
posting of indirect costs to grants would not exceed the 46% allowed. Those final grant
amounts are then rolled over to the new year as prior costs. This is done to comply with our
indirect rate understanding that amounts over the maximum provisional or predetermined
rate cannot be charged to any funding agency. This excess amount was journaled out of
administrative/indirect costs into the "unallowed costs" area so that it would not be included
in any grant costs or calculations.

       We also utilized a budgeting process that makes sure that we do not exceed our target
of a 46% indirect cost rate. In addition, research proposals are submitted using a 46%
indirect rate. This indirect rate used for submitting proposals has remained at 46% for
several years since our maximum provisional rate has not varied.

Auditors' Response to Audit's Response

        No changes are necessary to the adjustments since the auditee either concurs (the first
three listed adjustments) or explains why the understated costs were not included in the
indirect cost pool.


                                                                                            22
                                            BIGELOW LABORATORY FOR OCEAN SCIENCES
                                       Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                                                        For the year ended June 30, 2000


                                                                                                   Category of Expense
                                                                                                                   Unallocated
                                                               Total                   Profess.                      Fringe       Unallocated
	          Adjustment and Elimination Explanation             Amount       Travel       Fees           Other        Benefits       Overhead

    Reimbursable travel costs in excess of Federal
    guidelines.                                               $ (8,949)    $ (344)     $(8,605)       $              $              $

    Various unallowable expenses erroneously charged
    to indirect costs from the Other Account.                   (5,759)                                   (5,759)

    DNA sequencer charged to administrative expenses,
    should be a direct program cost.                            (2,160)                                   (2,160)

    Costs attributable to operations not reflected in
    indirect costs proposed.                                    40,704                                                   19,292         21,412

        Totals                                                $23,836         344)        8 605)     L(7,9-1-9)      $ 19,292       $21,412




                                                                                                                                            C)
                                                                                                                                            C
                                                                                                                                            ¢.


                                                                                                                                            n
                                                                                                                                            CD

    N
    W
	




                                                                             Schedule C-lb

                   BIGELOW LABORATORY FOR OCEAN SCIENCES
              Schedule of Auditors' Adjustments and Eliminations - Direct Costs
                              For the year ended June 30, 2000



	                                                               Category of Expense
           Adjustment and Elimination Explanation	        	            Other

    DNA sequencer charged to administrative expenses,
     should be a direct program cost.                                   $2,160




                                                                                       24
                   BIGELOW LABORATORY FOR OCEAN SCIENCES
                            Notes to Financial Schedules
                          For the year ended June 30, 2000


1. Summary of Significant Accounting Policies:

The accompanying financial schedules have been prepared in conformity with National
Science Foundation (NSF) instructions. Schedule B has been prepared from the indirect cost
proposal prepared by Bigelow Laboratory for Ocean Sciences and Schedule A, has been
prepared based upon the results of the audit of Schedule B. The schedules do not present the
complete financial position of Bigelow Laboratory for Ocean Sciences. In accordance with
NSF instructions, there are no schedules of financial position, statement of activities or
statement of cash flows.

2. Income Taxes:

Bigelow Laboratory for Ocean Sciences is a private nonprofit corporation, incorporated
under the laws of the State of Maine. Bigelow Laboratory for Ocean Sciences is exempt
from income taxes under Section 501(c)(3) of the Internal Revenue Code. It is also exempt
from State of Maine franchise or income tax.




                                                                                         25
        SECTION IV

SUPPLEMENTARY INFORMATION




                            26
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


   INDEPENDENT AUDITORS' REPORT ON SUPPLEMENTARY INFORMATION

Our report on our audit of the schedule of over/(under) recovered indirect costs and
schedules of indirect and direct costs (the basic financial schedules) of Bigelow Laboratory
for Ocean Sciences for the year ended June 30, 2000, appears in Schedule A and Schedule B.
The audit was made for the purpose of forming an opinion on the basic financial schedules
taken as a whole. The supplementary information presented in Schedules D-1 to D-15 and
Schedule E are presented for purposes of supplementary analysis and are not a required part
of the basic financial schedules. The supplementary information has not been subjected to
the auditing procedures applied in the audit of the basic financial schedules and, accordingly,
we express no opinion on it.




May 31, 2002




                                                                                            27
                                                                                              Schedule D-1

                    National Science Foundation Award Number OCE-9423535
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                       Schedule of Over /(Under) Recovered Indirect Costs
                         For the Period July 1, 1999 to June 30, 2000 (A)
                                               Final
                                           (Unaudited)



Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of 41.3%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is to July 1, 1995 to June 30, 2000.

(B)   The total direct costs plus the claimed indirect costs totals $69,379 for the period July 1, 1999 to
      June 30, 2000. This amount, added to the cumulative costs at June 30, 1999 of $232,744, agrees
      with the cumulative net disbursements reported on the FCTR as of the quarter ended June 30, 2000.

(C)   Indirect costs were claimed based upon the application of a maximum provisional rate of 41.30%.
      (The award letter did not include a statement as to the indirect cost method or rate. The rate was
      derived from the approved budget).


                                                                                                       28
See accompanying independent auditors' report.
                                                                                              Schedule D-2

                    National Science Foundation Award Number OCE-9513846
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period July 1, 1999 to June 30, 2000 (A)
                                              Interim
                                           (Unaudited)



Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of the maximum
 provisional rate of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs                                                 ;

(A)   The award period is April 15, 1996 to February 28, 2001.

(B)   The total direct costs plus the claimed indirect costs totals $222,697 for the period July 1, 1999 to
      June 30, 2000. This amount, added to the cumulative costs at June 30, 1999 of $892,712, agrees
      with the cumulative net disbursements reported on the FCTR as of the quarter ended June 30, 2000.

(C) Indirect costs were claimed based upon the application of a maximum provisional rate of 46%.



                                                                                                        29
See accompanying independent auditors' report.
                                                                                           Schedule D-3

                    National Science Foundation Award Number OCE-9634162
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                        For the Period July 1, 1999 to August 31, 1999 (A)
                                                Final
                                            (Unaudited)


Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of the maximum
  provisional rate of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is September 15, 1996 to August 31, 1999.

(B)   The total direct costs plus the claimed indirect costs totals $33,193 for the period July 1, 1999 to
      June 30, 2000. This amount, added to the cumulative costs at June 30, 1999 of $227,834, agrees
      with the cumulative net disbursements reported on the FCTR as of the quarter ended September 30,
      1999.

(C)   Indirect costs were claimed based upon the application of a maximum provisional rate of 46%.
      (The award letter did not include a statement as to the indirect cost method or rate. The rate was
      derived from the approved budget).

                                                                                                       30
See accompanying independent auditors' report.
                                                                                            Schedule D-4

                    National Science Foundation Award Number OCE-9634165
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period July 1, 1999 to June 30, 2000 (A)
                                              Interim
                                           (Unaudited)


                                                                                         FYE
Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of the maximum
 provisional rate of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is December 1, 1996 to November 30, 2000.

(B)   The total direct costs plus the claimed indirect costs totals $109,278 for the period July 1, 1999 to
      June 30, 2000. This amount, added to the cumulative costs at June 30, 1999 of $280,595, agrees
      with the cumulative net disbursements reported on the FCTR as of the quarter ended 6/30/00.

(C)   Indirect costs were claimed based upon the application of a rate of 46%. (The award letter did not
      include a statement as to the indirect cost method or rate. The rate was derived from the approved
      budget).

(D)   The total costs (direct and indirect) were claimed up to the budget maximum. The under recovered
      indirect costs cannot be recovered on this award.


                                                                                                        31
See accompanying independent auditors' report.
                                                                                          Schedule D-5

                    National Science Foundation Award Number OCE-9617960
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period July 1, 1999 to June 30, 2000 (A)
                                              Interim
                                           (Unaudited)




Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of the maximum
  provisional rate of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is February 15, 1997 to January 31, 2002 .

(B)   The total direct costs plus the claimed indirect costs totals $6,336 for the period July 1, 1999 to
      June 30, 2000. This amount, added to the cumulative costs at June 30, 1999 of $232,828, agrees
      with the cumulative net disbursements reported on the FCTR as of the quarter ended June 30, 2000.

(C)   Indirect costs were claimed based upon the application of a maximum provisional rate of 46%.
      (The award letter did not include a statement as to the indirect cost method or rate. The rate was
      derived from the approved budget).

                                                                                                      32
See accompanying independent auditors' report.
                                                                                            Schedule D-6

                    National Science Foundation Award Number OCE-9617680
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                       For the Period July 1, 1999 to February 29, 2000 (A)
                                               Final
                                            (Unaudited)



Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of the maximum
 provisional rate of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is March 1, 1997 to February 29, 2000.

(B)   The total direct costs plus the claimed indirect costs totals $109,714 for the period July 1, 1999 to
      June 30, 2000. This amount, added to the cumulative costs at June 30, 1999 of $197,349, agrees
      with the cumulative net disbursements reported on the FCTR as of the quarter ended June 30, 2000.

(C)   Indirect costs were claimed based upon the application of a maximum provisional rate of 46%.



                                                                                                        33
See accompanying independent auditors' report.
                                                                                             Schedule D-7

                    National Science Foundation Award Number OCE-9711723
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period July 1, 1999 to June 30, 2000 (A)
                                              Interim
                                           (Unaudited)



Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of the maximum
 provisional rate of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is August 15, 1997 to July 31, 2001.

(B)   The total direct costs plus the claimed indirect costs totals $46,361 for the period July 1, 1999 to
      June 30, 2000. This amount, added to the cumulative costs at June 30, 1999 of $93,592, agrees
      with the cumulative net disbursements reported on the FCTR as of the quarter ended June 30, 2000.

(C)   Indirect costs were claimed based upon the application of a maximum provisional rate of 46%.



                                                                                                       34
See accompanying independent auditors' report.
                                                                                               Schedule D-8

                    National Science Foundation Award Number OCE-9711168
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period July 1, 1999 to June 30, 2000 (A)
                                              Interim
                                           (Unaudited)


Cost Category

Personnel costs
Equipment
Participant support costs
S ubawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of the maximum
 provisional rate of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is September 15, 1997 to August 31, 2000.

(B)   The total direct costs plus the claimed indirect costs totals $144,321 for the period July 1, 1999 to
      June 30, 2000. This amount, added to the cumulative costs at June 30, 1999 of $166,718, agrees
      with the cumulative net disbursements reported on the FCTR as of the quarter ended June 30, 2000.

(C) Indirect costs were claimed based upon the application of a maximum provisional rate of 46%.




                                                                                                        35
See accompanying independent auditors' report.
                                                                                             Schedule D-9

                    National Science Foundation Award Number OCE-9806743
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period July 1, 1999 to June 30, 2000 (A)
                                              Interim
                                           (Unaudited)


Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of the maximum
 provisional rate of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is September 15, 1998 to August 31, 2001.

(B)   The total direct costs plus the claimed indirect costs totals $57,951 for the period July 1, 1999 to
      June 30, 2000. This amount, added to the cumulative costs at June 30, 1999 of $16,163, agrees
      with the cumulative net disbursements reported on the FCTR as of the quarter ended June 30, 2000.

(C)   Indirect costs were claimed based upon the application of a rate of 46%. (The award letter did not
      i nclude a statement as to the indirect cost method or rate. The rate was derived from the approved
      budget).


                                                                                                       36
See accompanying independent auditors' report.
                                                                                         Schedule D-10

                    National Science Foundation Award Number OCE-9813640
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period July 1, 1999 to June 30, 2000 (A)
                                              Interim
                                           (Unaudited)


Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
   Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is November 1, 1998 to October 31, 2001.

(B)   The total direct costs plus the claimed indirect costs totals $57,092 for the period July 1, 1999 to
      June 30, 2000. This amount, added to the cumulative costs at June 30, 1999 of $60,275, agrees
      with the cumulative net disbursements reported on the FCTR as of the quarter ended June 30, 2000.

(C)   Indirect costs were claimed based upon the application of a rate of 46%. (The award letter did not
      include a statement as to the indirect cost method or rate. The rate was derived from the approved
      budget).



                                                                                                       37
See accompanying independent auditors' report.
                                                                                            Schedule D-11

                    National Science Foundation Award Number OCE-9813642
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period July 1, 1999 to June 30, 2000 (A)
                                              Interim
                                           (Unaudited)


Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is February 1, 1999 to January 31, 2002.

(B)   The total direct costs plus the claimed indirect costs totals $92,551 for the period July 1, 1999 to
      June 30, 2000. This amount, added to the cumulative costs at June 30, 1999 of $2,422, agrees with
      the cumulative net disbursements reported on the FCTR as of the quarter ended June 30, 2000.

(C)   Indirect costs were claimed based upon the application of a rate of 46%. (The award letter did not
      include a statement as to the indirect cost method or rate. The rate was derived from the approved
      budget).



                                                                                                       38
See accompanying independent auditors' report.
                                                                                            Schedule D- 12

                    National Science Foundation Award Number OCE-9815155
                                           Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period July 1, 1999 to June 30, 2000 (A)
                                              Interim
                                           (Unaudited)



Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is July 1, 1999 to June 30, 2001.

(B)   The total direct costs plus the claimed indirect costs agrees with the cumulative net disbursements
      reported on the FCTR as of the quarter ended June 30, 2000.

(C)   Indirect costs were claimed based upon the application of a rate of 46%. (The award letter did not
      include a statement as to the indirect cost method or rate, however, there was a negotiated fixed
      rate of 46%).



                                                                                                       39
See accompanying independent auditors' report.
                                                                                           Schedule D- 13

                    National Science Foundation Award Number OCE-9904444
                                          Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                       For the Period October 1, 1999 to June 30, 2000 (A)
                                             Interim
                                          (Unaudited)



Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is October 1, 1999 to March 31, 2001.

(B)   The total direct costs plus the claimed indirect costs agrees with the cumulative net disbursements
      reported on the FCTR as of the quarter ended June 30, 2000.

(C) Indirect costs were claimed based upon the application of a rate of 46%. (The award letter did not
      include a statement as to the indirect cost method or rate, however, there was a negotiated fixed
      rate of 46%).



                                                                                                        40
See accompanying independent auditors' report.
                                                                                         Schedule D-14

                    National Science Foundation Award Number OCE-9986331
                                          Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period May 1, 2000 to June 30, 2000 (A)
                                             Interim
                                           (Unaudited)



Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is May 1, 2000 to April 30, 2002.

(B)   The total direct costs plus the claimed indirect costs agrees with the cumulative net disbursements
      reported on the FCTR as of the quarter ended June 30, 2000.

(C)   Indirect costs were claimed based upon the application of a rate of 46%. (The award letter did not
      include a statement as to the indirect cost method or rate, however, there was a negotiated fixed
      rate of 46%).



                                                                                                      41
See accompanying independent auditors' report.
                                                                                           Schedule D- 1 5

                    National Science Foundation Award Number OCE-9910676
                                          Awarded To
                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                        Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period May 15, 2000 to June 30, 2000 (A)
                                           Interim (D)
                                          (Unaudited)


Cost Category

Personnel costs
Equipment
Participant support costs
Subawards
Fee for service
Other direct costs

Total direct costs
Exclusions:
  Equipment
  Participant support
  Fee for service
  Subawards

Modified total direct cost base

Final audited indirect cost rate

Calculated indirect costs per audit
Less: adjustment for indirect costs in excess of 46%

Indirect costs as adjusted
Claimed indirect costs (C)

Over/(Under) recovered indirect costs

(A)   The award period is May 15, 2000 to February 28, 2002.

(B)   The total direct costs plus the claimed indirect costs agrees with the cumulative net disbursements
      reported on the FCTR as of the quarter ended June 30, 2000.

(C)   Indirect costs were claimed based upon the application of a rate of 46%. (The award letter did not
      i nclude a statement as to the indirect cost method or rate, however, there was a negotiated fixed
      rate of 46%).

(D)   The award ending date is June 30, 2000, however, BLOS has unexpended budgeted funds to claim
      on a subsequent FCTR.

                                                                                                        42
See accompanying independent auditors' report.
                                                                                      Schedule E

                     BIGELOW LABORATORY FOR OCEAN SCIENCES
                       Listing of NSF Awards Active During Audit Period
                               Not Affected by Indirect Cost Audit
                                 For the year ended June 30, 2000
                                           (Unaudited)


There were two NSF awards that were active during the year ended June 30, 2000, that did
not include:

      •   Indirect costs incurred or billed to NSF on an FCTR.

The listing below presents those awards along with an explanation for their exclusion from
this audit.

            NSF Award Number                   Award Period                  Explanation

               OPP-9905947                  02/16/99-02/15/03                   (A)
               OCE-9907566                  12/01/99-11/30/00                   (A)

(A)       No indirect costs budgeted/approved or claimed under this award.




                                                                                             43
See accompanying independent auditors' report.
    SECTION V


AWARDEE'S RESPONSE




                     44
                  BIGELOW LABORATORY FOR OCEAN SCIENCES
Details of Adjustments to Indirect Costs - Unallowable Costs Charged to the Other Account
                             For the year ended June 30, 2000
	




                                BIGELOW LABORATORY FOR OCEAN SCIENCES
    Details of Adjustments to Indirect Costs - Reclass of Indirect Expense to Direct Expense from the Other Account
                                            For the year ended June 30, 2000




                                                                                              Indirect Cost
                                             Transaction   G/L Account                        Proposal Line      Indirect
	        Vendor/Payee	                          Date	        Number        Account Name	       Item Name	          Cost
                      BIGELOW LABORATORY FOR OCEAN SCIENCES
Details of Adjustments to Indirect Costs - Reimbursable Travel Costs in Excess of Federal Guidelines
                                   For the year ended June 30, 2000
	




         Bigelow Laboratory for Ocean Sciences
         P.O. Box 475,180 McKown Point Road, West Boothbay Harbor, Maine 04575-0475
                    www.bigelow.org	            207-633-9600                   FAX: 207-633-9641




    Enclosed, please find our response to the NSF audit findings of the indirect cost audit of
    Bigelow Laboratory for Ocean Sciences for the year ended June 30, 2000.

    Our separate responses are to the findings as found on pages 10, 11, 12 and 20. 1 have also
    submitted financial information to explain the one finding that we have questioned. We
    respectfully request that you reconsider the comment. If any additional paperwork is required,
    I will be happy to provide it.


    If you have any questions, please call me.


    Sincerely,




    Enclosures
    Bigelow Laboratory for Ocean Sciences
    P.O. Box 475,180 McKown Point Road, West Boothbay Harbor, Maine 04575-0475
    www.bigelow.org                      207-633-9600                 FAX 207-633-9641




12/13/02

Response to Page No. 10
Findings and Recommendations on Compliance

2. Unallowable Travel Costs Included in the Indirect Cost Pool.

        Response: The architect's invoice in question was received at year end and the travel
costs were not thoroughly reviewed. We were unable to substantiate that any other expenses
were included in the questioned line and thus concurred with the finding. All staff travel
vouchers are now reviewed by two people to ensure that the proper per diem rate is used. We will
also carefully monitor the travel expenses of our professional services providers. We will
continue to use the internet access (www.policvworks.gov) for per diem rates.
       Bigelow Laboratory for Ocean Sciences
      P.O. Box 475,180 McKown Point Road, West Boothbay Harbor, Maine 04575-0475
      www.bigelow.org                     207-633-9600                  FAX: 207-633-9641




  12/13/02

  Response to Page No. 11, 12
  Findings and Recommendations on Internal Control


  1. Indirect Cost Proposal Does Not Use Actual Costs




 These questioned costs were excluded only in our computerized accounting so that the automated
 posting of indirect costs to grants would not exceed the 46% allowed. Those final grant amounts are
 then rolled over to the new year as prior year costs. This is done to comply with our indirect
 rate understanding that amounts over the maximum provisional or predetermined rate cannot
 be charged to any funding agency. This excess amount was journaled out of
 administrative/indirect costs into the' unallowed costs" area so that it would not be included in
 any grant costs or calculations.

     During the financial audit of that year, those unallowed costs were added back into the
 administrative/management costs and used as a basis for our indirect cost calculation. I have
 attached some financial information to display that the information sent to NSF did include the
 questioned costs and our rate, subject to adjustments made in # 1 and #2 Compliance, was
 complete at 46.8179%.

 As per our enclosed financials, the total administration costs including fringe and the
unapplied (over 46%) indirect costs are $1,318,106. The amount posted to grants at 46% was
the $1,126,111. The remaining balance of $191,995 is made up of the unallowed costs of
donated rent (space), of $169,400, the unallowed interest on an old operating loan-in its final year-of
$1,182, and the excess amount of overhead that is being questioned in the amount of $21,412.
The variance is one dollar. I have also attached the indirect calculations for that year and the
computer printout showing the detail.
 12/13/02

 Response to Page No. 11, 12
 Findings and Recommendations on Internal Control


 1. Indirect Cost Proposal Does Not Use Actual Costs, page 2

 B. "The practice of targeting a proposed rate..."
     We go through a detailed process during Bigelow's budgeting each spring so that we can
determine how much in grant funds will be available to cover our research salaries and other costs.
Part of the process is to determine how much in indirect cost will be available, at our
provisional or fixed rate, to meet our administrative budget. The budget process also allows us
to identify goals from our long range plan and to fund the policies set by our board. The targeting
occurs during the budget process for the lab in that we decide to budget a 46% spending
level. As with all things, unexpected events occur and our recent actual rates have varied from
44.73% to 46.8%. This should not indicate targeting of our actual rates.

In addition, research proposals are submitted using a 46% indirect rate. This indirect rate used
for submitting proposals has remained at 46% for several years since our maximum provisional
rate has not varied. As long as we did not anticipate any major administrative changes, the rate
has been adequate and Bigelow did make a decision to keep the research proposal rate at 46% for
competitive reasons. For the several years prior to 2000, our indirect rate did not exceed the
46% and this strategy worked. As we look to future years, I expect that our rate will indeed
increase and proposals will include a higher indirect rate.

Subsequently, I am resubmitting the actual indirect costs with ledger backup that will
support the original 46.8%.
    Bigelow Laboratory for Ocean Sciences
    P.O. Box 475,180 McKown Point Road, West Boothbay Harbor, Maine 04575-0475
         www.bigelow.org                207-633-9600                  FAX 207-633-9641




12/13/02

Response to Page No. 11, 12
Findings and Recommendations on Internal Control



2. Prior to Payment a Designated Employee(s) Should Verify Receipt

        Response: Each science team has a designated person who deals with purchase
orders, ordering and approving invoices. Since Bigelow is a fairly small lab, we occasionally
allowed authorizations to be made by phone with no written audit trail. We have since changed
our method for verifying receipt of goods so that all payments have initials or a signature and
approval for payment.
	




       Bigelow Laboratory for Ocean Sciences
       P.O. Box 475,180 McKown Point Road, West Boothbay Harbor, Maine 04575-0475
           www.bigelow.org	                   207-633-9600                    FAX: 207-633-9641




    12/13/02

    Response to Page No. 11, 12
    Findings and Recommendations on Internal Control



    3. Invoices Should be Cancelled

           Response: We purchased a "PAID" stamp the week after our NSF audit exit interview.
    The purchase date was June 3, 2002 and we have used it diligently since.
	




        Bigelow Laboratory for Ocean Sciences
        P.O. Box 475,180 McKown Point Road, West Boothbay Harbor, Maine 04575-0475
        www. bigelow. org                    207-633-9600                   FAX: 207-633-9641




    12/13/02

    Response to Page 20
    Schedule of Auditor's Adjustments and Eliminations

    Direct program costs included in the indirect cost pool for a DNA sequencer that was charged
    to administrative expenses.

             Response: At the time, we believed that this piece of equipment qualified as an
    i ndirect cost. However, upon reexamination of the OMB Circular-122, Attachment A, Part B
    (1), I realize that this should have been a program cost. We will adjust our equipment records
    to reflect this change and exercise due diligence in future transactions.
	




                            Bigelow Laboratory for Ocean Sciences
                           P.O. Box 475, McKown Point, West Boothbay Harbor, Maine 04575-0475,207-633-9600
                           email: info@bigelow.org                                             FAX: 207-633-9641




    12/13/02

    Response to Page 20
    Schedule of Auditor's Adjustments and Eliminations

    Reimbursed travel vouchers paid to employees in excess of the maximum amount allowable
    under federal relations were included in the indirect cost isof and direct cost
    base.
           Response: All staff travel vouchers are now reviewed by two people to ensure that the
    proper per diem rate is used. We will also carefully monitor the travel expenses of our
    professional services providers.
	




                             Bigelow Laboratory for Ocean Sciences
                             P.O. Box 475, McKown Point, West Boothbay Harbor, Maine 04575-0475, 207-633-9600
                             email: info@bigelow.org                                              FAX: 207-633-9641




    12/13/02

    Response to Page 20
    Schedule of Auditor's Adjustments and Eliminations

    Entertainment costs which included celebrations for an employee picnic, 25' anniversary
    celebration and other similar type expense were included in the indirect cost pool.

           Response: At the time of the occurrences, we mistakenly believed that these costs were
    allowable as employee morale expenses

                       We now understand that the definition of employee morale is extremely
    limited and have adjusted our records to properly record the costs of any local employee gathering,
    such as social activities and ceremonials, as an unallowable cost.
     Bigelow Laboratory for Ocean Sciences
    P.O. Box 475,180 McKown Point Road, West Boothbay Harbor, Maine 04575-0475
    www.bigelow.org                      207-633-9600                   FAX: 207-633-9641




 12/13/02

Response to Page 20
Schedule of Auditor's Adjustments and Eliminations

Indirect costs attributable to operations (unallocated fringe benefits and overhead) not
reflected in indirect costs proposed.


   Response: These questioned costs were excluded only in our computerized accounting so
that the automated posting of indirect costs to grants would not exceed the 46% allowed. Those
final grant amounts are then rolled over to the new year as prior year costs. This is done to
comply with our indirect rate understanding that amounts over the maximum provisional or
predetermined rate cannot be charged to any funding agency. This excess amount was
journaled out of administrative/indirect costs into the "unallowed costs" area so that it would not
be included in any grant costs or calculations.

    During the financial audit of that year, those unallowed costs were added back into the
administrative/management costs and used as a basis for our indirect cost calculation. I have
attached some financial information to display that the information sent to NSF did include the
questioned costs and our rate, subject to adjustments made in # 1 and #2 Compliance, was
complete at 46.8179%.

As per our enclosed financials, the total administration costs including fringe and the
unapplied (over 46%) indirect costs are $1,318,106. The amount posted to grants at 46% was
the $1,126,111. The remaining balance of $191,995 is made up of the unallowed costs of
donated rent (space), of $169,400, the unallowed interest on an old operating loan-in its final year-of
$1,182, and the excess amount of overhead that is being questioned in the amount of $21,412. The
variance is one dollar. I have also attached the indirect calculations for that year and the computer
printout showing the detail.
